No. 19-123

In the Supreme Court of the United States
SHARONELL FULTON, ET AL.,
Petitioners,
V.

CITY OF PHILADELPHIA, ET AL.,
Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT

BRIEF OF AMICUS CURIAE
THE ROBERTSON CENTER FOR
CONSTITUTIONAL LAW
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,707 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 3, 2020
/s/ Mark D. Martin
MARK D. MARTIN
ROBERTSON CENTER FOR CONSTITUTIONAL LAW
Regent University School of Law

